                 Office of Inspector General
                Corporation for National and
                         Community Service




       Internal Review of Selected
          Management Controls

               Report #04-11




                                 NATIONAL^
                             COMMUNITY
                             SERVICE-




1201 New York Avenue, NW., Suite 830
        Washington, DC 20525
Telephone (202) 606-5000, extension 390
       Facsimile (202) 565-2795
        Hotline (800) 452-8210
MEMORANDUM

DATE:         January 7,2004

TO:           J. Russell George
              Inspector General

THRU:         Robert D. Shadowens       ~L~L-
              Deputy Inspector General

FROM:                             QCmdl
              Daniel P. ~ y b e r .t          /'
              Assistant Inspector General for Aud
                                                  ,%u
SUBJECT:      Internal Review of Selected Management Controls


This nlemorandum presents the results of our assessment of selected management
controls within the Office of Inspector General (OIG) of the Corporation for National and
Community Service (Corporation). Initiated at the request of the Inspector General, this
internal review is part of the OIG's self-assessment of controls to provide management
with additional assurances that procedures are effectively designed, documented, and
operating as intended.

Executive Summary

This review included OIG procedures associated with property management, travel
expenses, funds control, and records management. Several opportunities were noted to
improve the design and documentation of these controls, including better identification of
OIG property, more complete documentation of certain procedures, and a comprehensive
update of the OIG records inventory and retention guidelines. Management agreed with
these recommendations and has already initiated or completed their implementation.

Objectives, Scope, and Methodology

The objective of this assignment was to provide information to OIG management on
controls associated with selected processes within the OIG and, based on observation and
analysis, comment on the design, documentation, and operation of these controls. The
assessment covered procedures in place during the period of April 1, 2003, through
September 30,2003, and noted changes implemented by OIG management from
September 30, 2003, through the date of this report. Methodology included interviews
with OtG and Corporation personnel, a review of documented procedures, testing of key


                                                                                                            -
systems and processes, and discussion of recommended inlprovements with OIG

                     1201 Ncw Yorli Avenue, NW, Suite 830   *
                                                           Washington, DC 20525
                        202-606-5000 * Hotline 800-452-8210 * www.cncsig.gov             USA-
                                                                                         Freedom Corps
                         Senior Corps   * AmeriCorps *   Learn and Serve America             I hi. Prc\~dcnt'\C.ill   10   Scnlcc
Internal Kcv~ewof Selccted Management Controls
Repot-1#04- 1 1
Page 2

management. This review was not an audit of accounts or financial reports and,
accordingly, does not include an opinion on the presentation or accuracy of OIG financial
data. Nor does this review consider the overall management control structure or OIG
compliance with specific laws and regulations. Instead, it is an internal assessment for
use by OIG management in monitoring controls on the administration of appropriated
funds.

Discussion of Controls, Analyses, and Recommendations

BecauSe of its separate appropriation and degree of organizational independence, the OIG
maintains much of its own procurement authorities, budgetary, and fiscal control.
Manasement control procedures associated with these processes are generally
documented in the OIG Policy Manual or in corresponding Corporation policy directives.
The OIG's Audit Section reviewed selected management controls within the OIG to
comment on the design and operation and, where appropriate, make recommendations to
improve OIG procedures. The review included property management, travel expenses,
funds control, and records management. Following is a discussion of these procedures
and our observations, analyses, and recommendations.

Property Management

The OIG is the custodian of $278,000 of nonexpendable and sensitive property.' These
assets are subject to Federal Property Management Regulations and internal control
procedures for safeguarding against loss, misappropriation and unauthorized use.

In managing these assets, OIG Office Manager maintains an itemized property register
for furniture and general equipment, and the Information Technology Specialist
maintains a property register for data processing equipment. These registers are updated
periodically as new items are purchased and obsolete items are disposed. The integrity of
the property registers is verified annually through a physical inventory, which was most
recently conducted in September 2003. Since serialized labels are not affixed to OIG
property, items that do not have a manufacturer's serial number are identified in
inventory records by description and location. The Corporation's property management
office disposes of excess and obsolete OIG property.

The OIG Policy Manual does not specifically address property management. Instead,
OIG nlanagers follow aspects of Corporation Policy No. 500 in controlling and
safegubrding the office's nonexpendable and sensitive property. However, the
Corporation's policy, which is not designed to include OIG property, is not formally or
consistently adopted by the OIG. There are opportunities to introduce or improve cost-
effective controls over OTG property, as follows:



I Nonexpendable property has an acquisition value of $500 or more, a useful life of at least one year, is not
consumed in use, and does not become part of another Item. Sensitive property includes cell phones,
cameras, copiers and similar items subject to higher levels of control and safeguarding.
Internal Rewew of Selected Management Controls
Report XOJ-I I
Page 3

           The OIG Policy Manual does not address property management procedures.
           Documentation of these procedures, with any applicable references to
           Corporation policy, will help ensure clear understanding and consistent
           application of control procedures, roles, and responsibilities.

          Currently, no identifying labels are affixed to OIG property. Such labels,
          permanently identifying the property by sequential number and indicating U.S.
          Government ownership, are a cost-effective control that specifically identifies
          property and facilitates the physical inventory process.

           The property registers should indicate additions and dispositions of
           nonexpendable and sensitive property during the year, thereby creating
           independently verifiable documentation of changes from one physical inventory
           to the next.

           The team that conducted the most recent physical inventory did not consistently
           include an individual independent of the property custodian, preventing the
           inventory from providing independent assurance of the integrity of the
           custodian's property register. This requirement for independent verification
           should be reiterated in the OIG Policy Manual.

Management agreed with these recommendations and has already begun a revision of the
OIG Policy Manual to implement these changes.

Travel Expenses

Office of Inspector General personnel maintain an active travel schedule, and
corresponding obligations total approximately $53,000 per year. These costs are subject
to standard funds control processes as well as the Federal Travel Regulations. Travelers
are provided with Government Travel Cards and are generally required to use these cards
for expenses incurred while on temporary duty assignments. Principal control objectives
are to provide reasonable assurance that only authorized and necessary travel expenses
are paid in accordance with Federal Travel Regulations, and to provide a full and
accurate accounting of all official travel expenses.

Controls associated with OIG travel include documented travel authorization for the
obligation of funds, supervisory review and approval of travel vouchers, and detailed
examination of travel vouchers and supporting receipts by the Office Manager prior to
certifying the voucher for payment.

The controls associated with OIG travel are generally documented in Corporation Policy
No. 500, with a brief discussion also included in the OIG Policy Manual. The
Corpoflation's policy provides comprehensive guidance on travel procedures and
             documents the control process. However, the following revisions to the
                     could improve documentation of controls applicable to OIG
Internal Kev~ewof Selected Management Controls
Report #04- 1 1
Page 4



          Specific reference to the applicability of the Corporation's Policy No. 503;

          A statement that OlG supervisors will review travel vouchers to ensure that travel
          was authorized and that the claimed costs are reasonable and necessary; and

          A statement that the Office Manager (or appropriate staff) will examine the
          voucher, including supporting documents and per diem calculations, for accuracy
          and completeness prior to certifying for payment.

Travel card use is subject to additional controls intended to identify and address
unauthorized charges or cardholder abuse. All travel card charges by Corporation
employees, including OIG personnel, are analyzed and reviewed for potential misuse by
OIG investigative staff. Transaction data, downloaded directly from the issuing bank, is
sorted by category of transaction, and potential misuse is then assessed through a detailed
examination of individual travel authorizations, travel vouchers, and travel card charges.
This review has been conducted annually since 2001, and the 2003 review is currently
underway. In order to formalize and communicate this procedure, OIG management
should consider including in the Policy Manual a statement to the effect that OIG
investigative or audit personnel will review all OIG travel card use on an annual basis.

Management agreed with these recommendations and has already taken steps to revise
the OIG Policy Manual to incorporate these changes.

Funds Control

Because of its separate appropriation and degree of organizational independence, the OIG
maintains much of its own procurement authorities, budgetary control and accounting
r e ~ ~ o n s i b i l i t i e she
                               . ~ Office of Inspector General management team includes a highly
trained and experienced Federal contracting officer whose principal responsibilities
include the procurement of professional services. These services, such as engaging
independent public accounting firms for specific audit assignments, represent the largest
portion of OIG procurements and are undertaken, for the most part, through competitive
processes. In addition, the OIG uses the Government Purchase Card program for most of
its small-dollar procurements. While maintaining these functions in-house, the OIG uses
the Corporation's automated Momentum accounting and control system for recording
transactions in the general ledger and making payments. The OIG also relies on the
Corporation for developing periodic budget execution reports and uses the Corporation's
Office of Procurement Services for certain procurements. As a result, OIG procedures
associated with funds control are not exclusive of the Corporation's policies and
procedures. Following is a discussion of key processes associated with OIG funds
control.


' Accounting responsibilities performed within the OIG include the entry and approval of transactions in
the Corjporation's Momentum accounting and control system, as well as retention of original accounting
records supporting expenditures of OIG funding.
Internal Re\ lev. of Selected Management Cont~ols
Repol t NJ- I 1
Page 5

Motnerztum - The Corporation's Momentum accounting and control system involves all
aspects of the transaction cycle, from requisition through procurement, receipt, and
payment. Each step requires the creation and approval of a Momentum document (except
for the receiving function, which requires only a single action by one individual). System
control objectives include reasonable assurance of compliance with Federal funds control
requirements.

The Corporation's separation of duty guidance associated with Momentum actions
requires that no individual approve two or more actions related to a single transaction.
This gpidance is more stringent than would be practicable in a small-office environment
such ag the OIG. It requires that no individual approve two actions related to a single
transa4tion. As a result, OIG practice deviates from the Corporation's guidance in that an
OIG olfficial will sometimes approve two actions related to a single transaction. This
assessinent noted no instances of incompatible approvals (as defined in the table below),
and thk OIG's monthly review and reconciliation of all Momentum actions to source
docuqents, subject to two levels of management review, is a significant compensating
control. Nevertheless, documentation of these controls could be improved.

Though the OIG Policy Manual clearly docun~entsMomentum approval authorities and
dollar ~thresholds,as well as the monthly reconciliation process, it does not address
separaltion of duties. Inclusion of a statement or table of incompatible roles would assist
OIG personnel in consistently adhering to appropriate separation of duties. At a
minimum, the following Momentum functions for OIG transactions would be deemed
incompatible.

I--                   Inconsistent OIG actions within Momentum:
  Approving purchase requisition             Obligating funds
  Obligating funds                           Receiving goods or services
  Preparing payment voucher                  Approving payment
  Receiving goods or services                Approving payment
  Obligating funds                           Approving payment

Approvals within the Momentum system are supported by documentation, including the
signature of the approving OIG official, and these supporting documents are retained by
the OIG. Controls over the payment process could be improved by clarifying the
approving official's role and responsibility, as follows:

          For officials administratively approving invoices for payment, a standard
          statement indicating the basis and scope of the approval should be included in the
          supporting documentation (e.g., this invoice is administratively approved for
          payment based on my knowledge and, as appropriate, acceptance of the goods
          received or services provided).

Management agreed to revise the OIG Policy Manual to include a description of
incompatible duties and has already modified its payment procedures to document the
basis and scope of administrative approvals.
Internal ttev~ewof Selected Management Controls
Rcport #01-I I
Page 6

Purchase Cards - During Fiscal Year 2003, OIG procurements by purchase card totaled
$49,300 and involved 240 transactions, a relatively high volume of small-dollar
procurements. Control objectives associated with Government Purchase Card programs
are reducing administrative costs associated with small-dollar purchases and promptly
identifying abuse or noncompliance with program requirements.

Desigihed to be streamlined and expedient, Government purchase cards also have unique
vulnerabilities and separate control procedures. Although they provide efficiency and
savings, purchase card programs are generally considered higher risk because they allow
the same individual to order, pay for, and receive goods or services. Monthly statements
are then paid with Federal funds directly to the bank issuing the card.

Purchase cards are used by OIG personnel for a range of goods and services, including
office supplies, subscriptions, reference material, and training. Five OIG employees are
currently issued Government purchase cards - two administrative specialists and three
invest~gativepersonnel. Card purchases are limited to a monthly maximum of $10,000
and an individual purchase ceiling of $2,500. The OIG maintains a system of controls
over card use that includes a quarterly commitment of funds based on each cardholder's
estimated purchases. Card purchases are then separately recorded in the accounts by
object class (e.g., supplies, training) of the individual purchases. Monthly statements are
certified by the cardholders and submitted together with supporting receipts for
independent reconciliation, review, and approval for payment. These procedures are set
forth in Corporation policy and supplemented by the OIG Policy Manual, which
reiterates key procedures and OIG-specific guidance.

Items purchased by card are generally received by the cardholder, and controls are not
designed to include a separate documentation of receipt and inspection of goods
purchased. As a result, receiving responsibility is solely with the cardholder, which is
consistent with the intended streamlining of small-dollar purchases. However, it is not
uncommon that items purchased by card are, in fact, received by another individual
within the OIG. Examples include reference books and other items ordered by a
cardholder at the request of an authorized individual within the office. In these instances,
charges may be paid prior to receipt of goods, and the assumption that the cardholder will
subsequently be aware of receipt of goods is not a reliable control. The following
procedure would improve controls over card purchases:

          Where items are procured with a Government purchase card and received and
          inspected by an individual other than the cardholder, include in the OIG Policy
          Manual a requirement that documentation of receipt (e.g., annotation by the
          receiving official on the packing slip) be prepared and forwarded to the
          cardholder or Office Manager as support for the payment.

Management agreed and has already taken steps to implement this recommendation.
Internal Keview of Selected Management Controls
Report #OJ-I 1
Page 7



Records Management

Records management and retention guidelines for Federal entities are developed by the
National Archives and Records Administration (NARA), and the OIG Policy Manual
documents basic guidance for OIG records management. However, the documented
procedures are not based on a current inventory of OIG records, resulting in incomplete
and unclear guidance. Office of Inspector General administrative personnel are currently
performing an inventory of official files as the first step in establishing comprehensive
retentibn guidelines for official OIG records. At the same time, the inventory will serve
as a bqsis for examining the overall records system and creating, eliminating or merging
existiag files to better meet management needs. As part of this exercise, a member of the
admin/strative staff is scheduled to undergo NARA training. This project should
continbe to be given priority. In addition, the OIG Policy Manual should be revised to:

           Ensure that original accounting, budget, travel, and leave records within the OIG
           are retained in accordance with NARA standards and management needs; and

          Provide supervisors with guidance on retention and safeguarding of potentially
          sensitive personnel information that they may keep on file (e.g., employee
          performance or health information).

Management agreed with these recommendations and advised that it will continue to give
priority to updating its records management process.

Monitoring of Controls

The ongoing consideration of management controls could be formalized by introducing
an annual self-assessment of key controls within the OIG. This is strictly an internal
process designed to assist management in identifying and addressing any changes during
the year that would impact the operation of control procedures or the risk associated with
a particular control objective. A standard template can be adapted to facilitate the self-
assessment, providing a systematic and cost-effective monitoring of OIG controls.

Management agreed that this process would be beneficial and may direct the OIG Audit
Section to lead a self-assessment exercise next year.



Based on our observations and analyses, the OIG control structure is designed to reflect
the office's low tolerance of risk in managing its funding and property. While identifying
several opportunities to improve the design and documentation of control processes as
discussed in the report, this limited review did not identify deficiencies in the operation
of these controls.
